                                     OVERVIEW
On December 15, 2008, the U.S. House of Representatives Committee on Oversight and
Government Reform (Committee) requested that the U.S. Department of Education
(Department), Office of Inspector General (OIG), provide information on OIG
recommendations made that remain unimplemented. The information was requested to
include recommendations made from January 1, 2001, to present. Specifically, the
Committee requested the following information:

   1. The total number of open recommendations, by year issued, 2001 through 2008;
   2. The total potential monetary benefit of open recommendations, by year issued,
      2001 through 2008;
   3. A brief description of the three open recommendations with the highest potential
      monetary benefit; and
   4. The total number of recommendations made, by year issued, 2001 through 2008.


                                  BACKGROUND

The Inspector General Act of 1978, as amended, Title 5 U.S.C., Appendix, states, “The
head of a Federal agency shall make management decisions on all findings and
recommendations set forth in an audit report of the inspector general of the agency within
a maximum of six months after the issuance of the report…The head of a Federal agency
shall complete final action on each management decision…within 12 months after the
date of the inspector general’s report.”

OMB Circular A-50 (Circular), Audit Followup, require agencies to establish systems to
assure the prompt and proper resolution and implementation of audit recommendations.
The Circular states, “Resolution shall be made within a maximum of six months after
issuance of a final report...Corrective action should proceed as rapidly as possible.”

The Circular provides definitions as follows:

       Audit Resolution – The point at which the audit organization and agency management
        or contracting officials agree on actions to be taken on reported findings and
        recommendations.
       Corrective Action – Measures taken to implement resolved audit findings and
        recommendations.

OIG provides information in its Semiannual Reports to Congress (SARs) on audit reports issued,
those reports that are not yet resolved (open), and those reports that have been resolved, but for
which corrective actions have not been implemented for at least a year after issuance of the final
audit report.



                                            1
The Department tracks audit resolution and the implementation of corrective actions related to
OIG products in its Audit Accountability and Resolution Tracking System (AARTS). The
Office of the Chief Financial Officer (OCFO) maintains this system, which includes input from
OIG and responsible program officials. AARTS includes recommendation-level detail for all
reports where the Department is directly responsible for implementing corrective action (internal
audits). The system includes less detailed information on the status of individual
recommendations made to non-federal entities, such as state educational agencies, local
educational agencies, participants in the student financial assistance programs, contractors, or
grantees (external audits).

We relied on information in AARTS and published in our SARs to prepare this response. We
did not confirm the status of audits and recommendations reported by the Department in
AARTS. All potential monetary benefits included in this response are based on the amounts of
the recommendations in OIG’s audit reports, and include questioned and unsupported costs, as
well as identified better uses of funds, as detailed in our SARs.

Periodically, OIG evaluates the effectiveness of the Department’s audit followup system and
corrective actions taken to address audit recommendations. The last such audit was issued
February 27, 2006, and can be found on OIG’s website at the following link:
http://oigmis3.ed.gov/auditreports/a19e0017.pdf. The Department stated it has implemented all
corrective actions related to that audit. During FY 2009, OIG plans to conduct another
evaluation of the Department’s audit follow up system.


                       PRIOR COMMITTEE REQUEST
On December 7, 2007, the Committee requested OIG to compile a list of
recommendations made that had not yet been implemented by the Department or by
Congress. That response was provided to the Committee on January 31, 2008, and can be
viewed on our website at the following link:

http://www.ed.gov/about/offices/list/oig/misc/notyetimplemented20012007.pdf

Because the Committee’s prior request asked for substantial information on each report’s
objectives, findings, and unimplemented recommendations and focused on cost savings,
OIG’s prior response was limited to internal audits of the Department for which such
detailed information is available. The current request does not include requirements for
such detailed information and requests information on all potential monetary benefits.
Because most of the monetary benefits identified by OIG are in our external audits, and
summary-level data could be compiled on the Committee’s timeline, this response
includes summary information on open recommendations from both internal and external
OIG audits.




                                            2
                      OPEN OIG RECOMMENDATIONS
                   January 1, 2001, through September 30, 2008

Internal Audits:

ED OIG generally does not estimate monetary benefits in its internal audits of the
Department’s management of its programs and operations, other than to identify better
uses of funds. AARTS includes recommendation-level detail for internal audit reports.
A total of 271 internal audits were issued during the period. Of those, 229 audits with
1,397 recommendations were reported as closed. 34 audits were reported as resolved,
and 8 audits were reported as unresolved. The 42 resolved and open audits included a
total of 379 recommendations, 190 of which have not yet been implemented.

                 Total Number of                 Number of                  Potential Monetary
    Year of       Internal Audit               Internal Audit              Benefits from Internal
    Report       Recommendations              Recommendations                  Audit Open
     Issue        Made in Period                 Still Open                 Recommendations
     2001               389                            0                                         $0
     2002               260                            0                                         $0
     2003               175                            0                                         $0
     2004               200                            2                                         $0
     2005               236                           12                                         $0
     2006               179                           19                                         $0
     2007               160                           23                                   $799,500
     2008               177                          134                                         $0
     Total             1,776                         190                                   $799,500


External Audits:

Because the Department does not maintain recommendation-level detail for external
audits in AARTS, the number of open recommendations and recommendations that have
been implemented cannot be determined without an in-depth review of each audit report
and confirmation of the status of corrective actions taken by the external entities.
However, to respond to this request, the information in our latest SAR was updated to
include all external audits issued through September 30, 2008, for which the Department
had not reached a management decision – resolved the audit – as of that date.1

Since the Department has not resolved the audits and instructed the external entities as to
the corrective actions needed, all recommendations for these audits are considered open.

1
  Audits are not considered overdue for resolution (issuance of the management decision), until six months
after the final report date. The additional recommendations for audits issued through September 30, 2008,
include audits that are not yet overdue for resolution.

                                                    3
The total number of recommendations made column includes all recommendations made
for external audits in the period, including those recommendations that the Department
has reported as resolved or closed. The open recommendations column includes only
those audits for which the Department has not yet resolved the audit.

A total of 298 external audits were issued during the period. Of those, 123 audits with
553 recommendations were reported as closed. 116 audits with 659 recommendations
were reported as resolved, and 59 audits with 449 recommendations were reported as
open.

Since recommendation-level detail is not available for external audits, our response is
understated for any open recommendations for the 116 external audits that have been
resolved, but for which corrective action has not been reported as completed for all
recommendations. With currently available information, in the time provided for this
response, we have no means by which to determine which of the 659 recommendations in
resolved audits have not yet been implemented.

               Total Number of             Number of             Potential Monetary
 Year of        External Audit           External Audit            Benefits from
 Report        Recommendations          Recommendations         External Audit Open
  Issue         Made in Period             Still Open            Recommendations
  2001                208                       15                         $6,014,275
  2002                227                       32                        $38,292,071
  2003                311                       34                        $24,600,776
  2004                223                       31                         $6,240,612
  2005                227                       40                        $95,879,339
  2006                175                       86                       $219,801,872
  2007                163                       89                       $417,123,290
  2008                127                      122                        $74,689,703
  Total              1,661                     449                       $882,641,938

The Department of Education, unlike other agencies, has various legal requirements that
it must apply before it can require the return of funds as a result of an audit finding. For
many of its programs, under the General Education Provisions Act, the Department has
“the burden of establishing a prima facie case for the recovery of funds, including an
analysis reflecting the value of the program services actually obtained in a determination
of harm to the Federal interest.” This means presenting a level of evidence and analysis
in a determination letter to establish the law and the facts supporting recovery of funds
that, unless rebutted, will sustain the recovery of funds. As a result, external audits with
potential monetary recoveries require additional work and can require more time to
resolve than external audits with only non-monetary findings or internal audits.




                                              4
Summary:

The following total numbers of recommendations, open recommendations, and amounts
of potential monetary benefits from open recommendations, resulted for both internal and
external reports issued from January 1, 2001, through September 30, 2008:

              Total Number of             Number of            Potential Monetary
 Year of      Recommendations         Recommendations          Benefits for All OIG
 Report       Made for All OIG           for All OIG            Audits from Open
  Issue        Audits in Period       Audits Still Open         Recommendations
  2001               597                      15                            $6,014,275
  2002               487                      32                           $38,292,071
  2003               486                      34                           $24,600,776
  2004               423                      33                            $6,240,612
  2005               463                      52                           $95,879,339
  2006               354                     105                          $219,801,872
  2007               323                     112                          $417,922,790
  2008               304                     256                           $74,689,703
  Total             3,437                    639                          $883,441,438


               OPEN RECOMMENDATIONS WITH THE
             HIGHEST POTENTIAL MONETARY BENEFIT
The Committee requested information on the three open recommendations deemed by
OIG to have the highest potential monetary benefit. Because many of OIG’s
recommendations are related to the same findings or issues, we summarized the three
audit reports, and the monetary recommendations in those reports, with the highest
potential monetary benefits.

   1. Bureau of Indian Affairs (BIA) Administration of Individuals with Disabilities
      Education Act (IDEA), issued 3/28/2007 – We recommended that Assistant
      Secretary for Special Education and Rehabilitative Services obtain an assurance
      from BIA officials that the $111 million of IDEA, Part B funds were used to
      deliver educational assistance to the children with disabilities at all of the BIA
      funded schools and return any funds not used for those purposes to the
      Department, to the extent authorized by law. We also recommended that the
      Deputy Secretary coordinate with the Department of Interior to require BIA to
      account for the remaining $217 million in other Department of Education funds it
      received during the audit period or return those funds to the Department of
      Education to the extent authorized by law. (Total potential monetary benefit
      $328 million.)

       Report Links: http://www.ed.gov/about/offices/list/oig/auditreports/a06f0019.pdf
       (to BIA), http://www.ed.gov/about/offices/list/oig/auditreports/a06g0002.pdf (to
       the Deputy Secretary)

                                           5
2. Illinois State Board of Education’s (ISBE’s) Compliance with the Title I, Part
   A, Comparability of Services Requirement, issued 6/7/2007 – ISBE did not
   adequately monitor Local Educational Agencies’ compliance with the Title I, Part
   A, Comparability of Services requirement in the 2004-2005 and 2005-2006
   program years. We recommended that the Assistant Secretary for Elementary and
   Secondary Education require ISBE to return $16,809,020 in Title I, Part A, funds
   that Chicago Public Schools (CPS) allocated to non-comparable schools in the
   2004-2005 and 2005-2006 program years. We also recommended that ISBE
   return that portion of $529,514,390 in Title I funds received by additional schools
   that ISBE determines to be non-comparable, based on CPS’ promised
   recalculation of its 2004-2005 and 2005-2006 program years’ comparability
   determinations.

   Report Link: http://www.ed.gov/about/offices/list/oig/auditreports/a05g0033.pdf

3. Educational Credit Management Corporation's (ECMC) Administration of the
   Federal Family Education Loan Program Federal and Operating Funds, issued
   3/18/2003 – We recommended that the Chief Operating Officer for Federal
   Student Aid (FSA) require ECMC to return $14.6 million, plus imputed interest,
   to the Federal Fund for unauthorized sources of income placed in the Operating
   Fund. We also recommended that FSA require ECMC to return to the Federal
   Fund any additional repurchase interest transfers made after December 2001 until
   this finding is resolved, plus imputed interest. We also recommended that FSA
   require ECMC to return $65,832 to the Federal Fund and allocate future expenses
   in accordance with its cost allocation plan. In addition, we recommended that
   FSA require ECMC to return $430,324 to the Federal Fund for supplemental
   preclaims assistance payments from the Department and imputed interested
   through August 31, 2002. We further recommended that additional imputed
   interest earned until the date this issue is resolved also be returned. (Total
   potential monetary benefit is $15.1 million plus imputed interest since December
   2001.)

   Report Link: http://www.ed.gov/about/offices/list/oig/auditreports/a05c0014.pdf




                                        6
